1a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MICHAEL BARAKA MASON,
Petitioner-Appellant,
v.
DANIEL PARAMO, Warden
and KAMALA D. HARRIS,
Attorney General,
Respondents-Appellees.

No. 18-55803
D.C. No. 3:16-cv01176-JLS-MDD
Southern District of
California, San Diego
ORDER
(Filed Feb. 28, 2019)

Before: TROTT and MURGUIA, Circuit Judges.
Appellant’s motion for an extension of time to file
a certificate of appealability (Docket Entry No. 5) is
granted.
The request for a certificate of appealability
(Docket Entry No. 4) is denied because appellant has
not shown that “jurists of reason would find it debatable whether the petition states a valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was
correct in its procedural ruling.” Slack v. McDaniel, 529
U.S. 473, 484 (2000); see also 28 U.S.C. § 2253(c)(2);
Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); MillerEl v. Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

2a
[SEAL]
United States District Court
SOUTHERN DISTRICT OF CALIFORNIA
Michael Baraka Mason
Civil Action No.
16cv1176-JLS-MDD

Petitioner,
V.

JUDGMENT IN A
CIVIL CASE

Warden Daniel Paramo;
Kamala Harris
Respondent.

Decision by Court. This action came to trial or hearing before the Court. The issues have been tried or
heard and a decision has been rendered.
IT IS HEREBY ORDERED AND ADJUDGED:
The Court adopts Judge Dembin’s Report and Recommendation, and denies Petitioner’s Petition for Habeas
Corpus.
CLERK OF COURT
JOHN MORRILL,
Clerk of Court
Date: 5/18/18

By: /s M. Lozano
M. Lozano, Deputy

3a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
MICHAEL BARAKA MASON, Case No.: 16-CV-1176
JLS (MDD)
Petitioner,
v.
DANIEL PARAMO, Warden,
et al.,
Respondents

ORDER ADOPTING
REPORT AND
RECOMMENDATION
RE PETITION FOR
HABEAS CORPUS
(ECF No. 34)

Petitioner Michael Baraka Mason has filed a Petition for Writ of Habeas Corpus, (“Petition,” ECF No. 1),
to which Respondent Daniel Paramo has filed a Response, (ECF No. 30). Petitioner then filed a Traverse,
(ECF No. 33). Magistrate Judge Mitchell D. Dembin issued a Report and Recommendation, recommending
the Court deny Petitioner’s Petition, (“R&R,” ECF No.
34). Judge Dembin ordered objections to the R&R to be
filed no later than April 13, 2018. Petitioner did not file
objections.
Having considered the Parties’ arguments and the
law, as well as the underlying state court record, the
Court ADOPTS Judge Dembin’s Report and Recommendation, and DENIES Petitioner’s Petition for Habeas Corpus.

4a
BACKGROUND
Judge Dembin’s R&R contains a thorough and accurate recitation of the factual and procedural histories underlying the instant Petition for Writ of Habeas
Corpus (See R&R 2–11.) This Order incorporates by
reference the background as set forth therein.
LEGAL STANDARD
Federal Rule of Civil Procedure 72(b) and 28
U.S.C. § 636(b)(1) set forth a district court’s duties regarding a magistrate judge’s report and recommendation. The district court “shall make a de novo
determination of those portions of the report . . . to
which objection is made,” and “may accept, reject, or
modify, in whole or in part, the findings or recommendations made by the magistrate judge.” 28 U.S.C.
§ 636(b)(1)(c); see also United States v. Raddatz, 447
U.S. 667, 673–76 (1980). In the absence of a timely objection, however, “the Court need only satisfy itself that
there is no clear error on the face of the record in order
to accept the recommendation.” Fed. R. Civ. P. 72 advisory committee’s note (citing Campbell v. U.S. Dist.
Court, 510 F.2d 196, 206 (9th Cir. 1974)).
ANALYSIS
I.

Summary of the R&R Conclusion

On May 11, 2016, Petitioner filed a Petition for
Writ of Habeas Corpus in this district. Petitioner was
convicted in state court and challenges his conviction

5a
on two grounds: (1) the trial court erred in admitting
the preliminary hearing testimony of Hana Jabbar at
trial; and (2) Petitioner received ineffective assistance
of counsel when his attorney failed to challenge the
trial court’s decision to permit the guilty verdict to
stand and the case to proceed to sentencing when
Juror 4 expressed she had reasonable doubt after the
verdict was given. (Petition 12–13.)1 Respondent previously filed a Motion to Dismiss Petitioner’s second
claim, which the Court granted pursuant to a previous
R&R. (See ECF No. 28.) Thus, only Petitioner’s first
claim remains.
As to his remaining claim, Petitioner’s [sic] argues
that the Court of Appeal erred by finding that the prosecution’s efforts to find Ms. Jabbar demonstrated a good
faith attempt to produce a witness. (Petition 12; Traverse 7.) Judge Dembin examined the Court of Appeal’s
conclusion that the prosecution made good faith and
diligent efforts to locate Hana Jabbar. (R&R 20.) Judge
Dembin surveyed the various efforts undertaken by
Mr. Cahill to locate Ms. Jabbar including attempting to
contact her, speaking with people close to her, and
searching among the homeless population where Ms.
Jabbar was reportedly residing. (Id.) Petitioner suggested additional, alternative search methods to locate
Ms. Jabbar, but Judge Dembin found that the prosecution is not required to exhaust every possible action.
Accordingly, Judge Dembin determined that the California Court of Appeal’s decision was neither contrary
1

Pin citations to docketed material refer to the CM/ECF
numbers electronically stamped at the top of each page.

6a
to, nor an unreasonable application of, clearly established Supreme Court precedent. (Id.)
Alternatively, Judge Dembin concluded that even
if the trial court erred in allowing Ms. Jabbar’s statement at trial, the error did not have a substantial and
injurious effect on the jury’s verdict. (Id.) There was
additional evidence produced at trial include [sic] Petitioner’s DNA on a cigarette at a crime scene, Mr. Bell
admitted taking part in the shooting and said that Petitioner was likewise involved, and Petitioner’s photo
was twice identified on the television program America’s Most Wanted. (See id. at 20–21.) Judge Dembin
finds any potential error by the trial court to be harmless.
II.

Court’s Analysis

Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), this Court may grant habeas relief only if the state court’s decision (1) “was
contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the
Supreme Court . . . ; or (2) resulted in a decision that
was based on an unreasonable determination of the
facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d); Early v. Packer,
537 U.S. 3, 7–8 (2002).
Under § 2254(d)(1), federal law must be “clearly
established” to support a habeas claim. Clearly established federal law “refers to the holdings, as opposed
to the dicta, of [the United States Supreme] Court’s

7a
decisions.” Williams v. Taylor, 529 U.S. 362, 412 (2000).
A state court’s decision may be “contrary to” clearly established Supreme Court precedent “if the state court
applies a rule that contradicts the governing law set
forth in [the Court’s] cases” or “if the state court confronts a set of facts that are materially indistinguishable from a decision of [the] Court and nevertheless
arrives at a result different from [the Court’s] precedent.” Id. at 406. A state court decision does not have
to demonstrate an awareness of clearly established Supreme Court precedent, provided neither the reasoning nor the result of the state court decision contradict
such precedent. Early, 537 U.S. at 8.
A state court decision involves an “unreasonable
application” of Supreme Court precedent “if the state
court identifies the correct governing legal rule from
this Court’s cases but unreasonably applies it to the
facts of the particular state prisoner’s case.” Williams,
529 U.S. at 407. An unreasonable application may also
be found “if the state court either unreasonably extends a legal principle from [Supreme Court] precedent to a new context where it should not apply or
unreasonably refuses to extend that principle to a new
context where it should apply.” Id.; see Wiggins v.
Smith, 539 U.S. 510, 520 (2003); Clark v. Murphy, 331
F.3d 1062, 1067 (9th Cir. 2003).
Relief under the “unreasonable application” clause
of § 2254(d) is available “if, and only if, it is so obvious
that a clearly established rule applies to a given set of
facts that there could be no ‘fairminded disagreement’
on the question.” White v. Woodall, 134 S. Ct. 1697,

8a
1706–07 (2014) (quoting Harrington v. Richter, 562
U.S. 86, 103 (2011)). An unreasonable application of
federal law requires the state court decision to be more
than incorrect or erroneous. Lockyer v. Andrade, 538
U.S. 63, 76 (2003). Instead, the state court’s application
must be “objectively unreasonable.” Id.; Miller-El v.
Cockrell, 537 U.S. 322, 340 (2003). Even if a petitioner
can satisfy § 2254(d), the petitioner must still demonstrate a constitutional violation. Fry v. Pliler, 551 U.S.
112, 119–22 (2007). With this general framework in
mind, the Court turns to Petitioner’s claim.
The Sixth Amendment’s Confrontation Clause, applied to the States through the Fourteenth Amendment, Pointer v. Texas, 380 U.S. 400, 403–05 (1965),
requires that “[i]n all criminal prosecutions, the accused shall enjoy the right . . . to be confronted with
the witnesses against him.” U.S. Const. amend. VI.
There are occasions, however, where witness testimony
may be presented without the opportunity to confront
the witness. There are two requirements for presenting
testimony without an available witness. First, Barber
v. Page, 390 U.S. 719, 724–25 (1968), held that “a
witness is not ‘unavailable’ for purposes of the . . . confrontation requirement unless the prosecutorial authorities have made a good-faith effort to obtain his
presence at trial.” Second, a court will allow only testimony that has sufficient “indicia of reliability” as to be
trustworthy for admission. Ohio v. Roberts, 448 U.S. 56,
65 (1980) (quoting Mancusi v. Stubbs, 408 U.S. 204, 213
(1972)), abrogated on other grounds by Crawford v.
Washington, 541 U.S. 36 (2004). Petitioner only argues

9a
that the first element was not met; the prosecution
failed to meet its good faith burden to find Ms. Jabbar.
In Roberts, the Supreme Court revisited the good faith
requirement and reiterated the “lengths to which the
prosecution must go to produce a witness . . . is a question of reasonableness.” Id. at 74 (alteration in original) (quoting California v. Green, 399 U.S. 149, 189
n.22 (1970) (Harlan, J., concurring)).2
Here, the California Supreme Court denied Petitioner’s appeal without comment, (Lodgment No. 8,
ECF No. 19-64), and the California Court of Appeal issued the last reasoned decision, (see Lodgment No. 6,
ECF No. 19-62). In such cases, federal habeas courts
apply the presumption that “[w]here there has been
one reasoned state judgment rejecting a federal claim,
later unexplained orders upholding that judgment or
rejecting the same claim rest upon the same ground.”
Wilson v. Sellers, 138 S. Ct. 1188, 1194 (2018) (quoting
Ylst v. Nunnemaker, 501 U.S. 797, 803 (1991)). Therefore, the Court evaluates the California Court of Appeal’s decision under 28 U.S.C. § 2254(d).
In evaluating Petitioner’s witness unavailability
claim, the California Court of Appeal cited People v.
Herrera, 49 Cal. 4th 613, 622–23 (2010), which in turn
explicitly relies on both Barber and Roberts. (Lodgment No. 6, at 15.) In Herrera, the California Supreme
Court recognized that the California Evidence Code
2

Because Petitioner only contests the first prong of the twopart Roberts’ standard, the Court does not address the second
prong requiring “indicia of reliability.”

10a
demands a similar requirement for establishing a witness’s unavailability as Barber and Roberts. 49 Cal. 4th
at 622. Thus, the Court of Appeal correctly identified
the controlling Supreme Court precedent to evaluate
witness unavailability. The only remaining question is
whether the court unreasonably applied the precedent
to the facts of Petitioner’s case. Williams, 529 U.S at
407.
The Court agrees with Judge Dembin that the California Court of Appeal’s application of the holding to
the facts in Petitioner’s case was reasonable. Because
this case falls under the “unreasonable application”
clause of § 2254(d), Petitioner may prevail “if, and only
if, it is so obvious that a clearly established rule applies
to a given set of facts that there could be no ‘fairminded
disagreement’ on the question.” Woodall, 134 S. Ct. at
1706–07 (quoting Richter, 562 U.S. at 103).
The Supreme Court’s decision in Roberts is instructive. There, the prosecutor attempted for four
months to locate an unavailable witness. Roberts, 448
U.S. at 75. The prosecutor spoke to the witness’ mother,
who stated she did not know of her daughter’s whereabouts and had no way to contact her. Id. The prosecutor served five subpoenas on the witness at her parents’
home in the four months prior to trial. Id. The Court
determined that the State had met its “duty of good
faith effort” to establish witness unavailability. Id.
In Hardy v. Cross, 565 U.S. 65, 71–72 (2011)
(per curiam), the Supreme Court reiterated that “the
Sixth Amendment does not require the prosecution to

11a
exhaust every avenue of inquiry, no matter how uncompromising.” The Supreme Court applied that
standard to the facts in Hardy where the Seventh Circuit faulted the prosecution for failing to contact the
witness’s current boyfriend, failing to make inquiries
at the cosmetology school where the witness had once
been enrolled, and neglecting to serve the witness a
subpoena after she expressed fear about testifying at
trial. See id. at 70–71. The Supreme Court disagreed
that these additional, incremental steps were required.
The Court concluded that “the deferential standard of
review set out in 28 U.S.C. § 2254(d) does not permit a
federal court to overturn a state court’s decision on the
question of unavailability merely because the federal
court identifies additional steps that might have been
taken.” Id. at 72.
Here, the Court of Appeal surveyed the undisputed facts proffered by the prosecution to meet the
good faith duty to find Ms. Hana Jabbar:
[T]he facts surrounding the prosecution’s efforts to secure Hana’s attendance at trial are
essentially undisputed. Cahill, the prosecution’s investigator, spoke with Hana prior to
Mason’s trial and told her her testimony
would be required. Later, Cahill attempted to
contact Hana by cell phone, but she did not respond. Cahill spoke with the people closest to
Hana about her whereabouts and determined
she was homeless. Cahill went to the area
where she was reportedly staying and showed
her picture to other homeless people in an effort to find her. Cahill himself drove through

12a
the area multiple times looking for her. Cahill
also reviewed a database of contacts with law
enforcement and emergency personnel and
found no mention of Hana.
(Lodgment No. 6, at 16.) The court also recognized that
Ms. Jabbar’s closest friends were not in contact with
her and did not know her location. (Id.) The court concluded that the prosecution’s efforts were reasonable
under the circumstances.
In reaching this finding, the court did not credit
Petitioner’s argument, renewed in his habeas petition,
that the prosecution could have secured Ms. Jabbar as
a material witness pursuant to California Penal Code
§ 1332.3 (Id. at 17.) The court reasoned that Mr. Cahill
reached out to Ms. Jabbar after Morris’s trial and Ms.
Jabbar did not explicitly resist Cahill’s admonition
that she would have to testify at Petitioner’s trial. (Id.)
3

Section 1332 provides, in pertinent part:
(a) [W]hen the court is satisfied, by proof on oath, that
there is good cause to believe that any material witness
for the prosecution or defense . . . will not appear and
testify unless security is required, at any proceeding in
connection with any criminal prosecution . . . , the court
may order the witness to enter into a written undertaking to the effect that he or she will appear and testify
at the time and place ordered by the court or that he or
she will forfeit an amount the court deems proper.
(b) If the witness required to enter into an undertaking to appear and testify . . . refuses compliance with
the order for that purpose, the court may commit the
witness, if an adult, to the custody of the sheriff . . . until the witness complies or is legally discharged.
Cal. Penal Code §1332(a)—(b).

13a
The Court of Appeal recognized that confining a witness, who had not committed a crime, is a drastic measure that should be used sparingly. (Id. (citing People v.
Cogswell, 48 Cal. 4th 467, 477 (2010)).) The court determined that Petitioner had not demonstrated that a
drastic measure, such as confining Ms. Jabbar, would
be warranted. (Id.)
Petitioner renews his argument that the prosecution could have taken additional available measures to
secure Ms. Jabbar’s presence at trial. (Traverse 8.) According to Petitioner, the prosecution should have issued a material witness warrant for Ms. Jabbar’s
arrest. (Id. (citing C. Penal Code § 1332; and People v.
Roldan, 205 Cal. App. 4th 969, 978 (Ct. App. 2012)).)
Petitioner would apply the Ninth Circuit’s holding in
Daboul v. Craven, 429 F.2d 164, 167 (9th Cir. 1970),
which addressed a situation where the prosecution
failed to use the Uniform Act to produce a witness.
(Traverse 8.) Petitioner admits that the Uniform Act
does not apply directly to his case, but argues the reasoning is persuasive. (See id.)
Daboul is distinguishable. That case relied on the
Supreme Court’s reasoning in Barber and stated “if the
prosecution fails to make use of the Uniform Act [to
Secure the Attendance of Witnesses from Without a
State in Criminal Proceedings], it has not made the required ‘good faith effort’ and cannot use the prior testimony.” Daboul, 429 F.3d at 167 (citing Barber, 390
U.S. at 723–24). Yet, Barber’s holding does not require
that the per se failure to use the Uniform Act (or a similar statute) is a constitutional violation. In Barber, the

14a
Supreme Court noted the witness was in federal custody and the prosecution could have issued a writ of
habeas corpus ad testificandum to compel the prisoner
to testify at trial. 390 U.S. at 723–24. Instead, the prosecution “made absolutely no effort to obtain the presence of [the witness] at trial other than to ascertain he
was in a federal prison outside Oklahoma.” Id. at 723.
Thus, Barber only held that the prosecution had to
show a good faith effort to obtain a witness’s personal
appearance at trial and failed to do so because it made
no effort to obtain the witness. Justice Marshall’s opinion summarized the relevant inquiry and result as follows:
In short, a witness is not ‘unavailable’ for
purposes of the foregoing exception to the confrontation requirement unless the prosecutorial authorities have made a good-faith effort
to obtain his presence at trial. The State made
no such effort here, and, so far as this record
reveals, the sole reason why Woods was not
present to testify in person was because the
State did not attempt to seek his presence.
The right of confrontation may not be dispensed with so lightly.
Id. at 724–25. Daboul relied on the Barber court’s dicta
to support its conclusion, but this Court is only bound
by Supreme Court holdings. As Roberts recognized, the
relevant inquiry is one of reasonableness, not a per se
rule that failure to use the Uniform Act (or similar
measures) necessitates an unreasonable application of
law.

15a
Petitioner also cites People v. Roldan, 205 Cal. App.
4th at 978. There, the witness was held in custody for
several months before a preliminary hearing and was
the key witness for the prosecution. Id. at 980, 982. The
Court of Appeal reasoned that the State’s good faith
requirement to produce a witness for trial included
“the duty to use reasonable means to prevent a present
witness from becoming absent.” Id. at 980 (quoting People v. Louis, 42 Cal. 3d 969, 991 (1986)); and citing
United States v. Tirado–Tirado, 563 F.3d 117, 124 (5th
Cir. 2009)). Thus, Roldan rests on the fact that the key
witness was in custody, the government knew the witness was material, and released the witness rather
than continuing the detention until trial.
The dispositive fact here is that Ms. Jabbar, unlike
the witnesses in Barber and Roldan, was not in custody. Moreover, the prosecution had no indication that
she might not testify until she failed to appear for Morris’s trial. Her failure to appear at Morris’s trial was
the earliest instance where the prosecution could have
been on notice that Ms. Jabbar might not be available
for trial. But, the State did not know her whereabouts.
Even if the State issued a warrant for her arrest pursuant to California Penal Code § 1332, Petitioner does
not explain how using section 1332 would have allowed
the prosecution to find Ms. Jabbar. Mr. Cahill could not
find Ms. Jabbar; he put her name in to the Officer Notification System and searched the “ARJIS” system,
which would have indicated that Ms. Jabbar had contact with law enforcement or medical personnel. (See
Lodgment No. 1-21, ECF No. 19-21, at 194–95 (trial

16a
transcript).) Neither was successful. If Ms. Jabbar had
no police contact how could have the prosecution detained her pursuant to § 1332? Petitioner’s theory does
not explain this question. Nor can it. This is not an instance where Ms. Jabbar was in a known location and
the State failed to secure her—no one knew where she
was. Thus, Daboul and Roldan’s logic is inapplicable
here.
Petitioner’s only other suggestion would be for Mr.
Cahill to visit homeless shelters and contact operators
of homeless shelters whether they saw Ms. Jabbar.
(Traverse 9.) Petitioner contends that contacting
homeless shelters would have required minimally
more effort and there is a possibility that such a minimal but affirmative measure might have produced Ms.
Jabbar. (Id.) Petitioner concludes that this further
measure “is what the federal standard unquestionably
requires.” (Id.) Yet, Mr. Cahill testified that “[e]very
day on my way in I’ll swing through the East Village
area, go up and down the streets, get out every now
[sic] and talk to people, show her photo, see if any of
the other homeless people recognize her or see her
down there.” (Lodgment No. 1-21, at 195.) Petitioner
faults Mr. Cahill for not reaching out to homeless shelters, but not even Ms. Jabbar’s own family knew her
whereabouts. Petitioner’s contention that the federal
standard unquestionably required Mr. Cahill to contact homeless shelters is simply not supported by the
law. As Hardy makes clear, “the Sixth Amendment
does not require the prosecution to exhaust every

17a
avenue of inquiry, no matter how uncompromising.”
565 U.S. at 71–72.
Mr. Cahill’s efforts were reasonable under the circumstances. Mr. Cahill repeatedly tried to reach Ms.
Jabbar using the means he had previously used to contacted [sic] her. He reached out to her friends and family, searched areas where she was likely to be, and
surveyed law enforcement databases. Mr. Cahill drove
through the area where Ms. Jabbar was reported to be
every day on his way to work. Of course, there will always be some further step the State possibly could
have taken, but the prosecution is not required to “exhaust every avenue of inquiry.” Hardy, 565 U.S. at 71–
72.
Furthermore, a federal habeas court is not merely
reviewing the reasonableness of the State’s actions in
a vacuum—this Court is reviewing the decision of the
California Court of Appeal, which must be given further deference. “As a condition for obtaining habeas
corpus from a federal court, a state prisoner must show
that the state court’s ruling on the claim being presented in federal court was so lacking in justification
that there was an error well understood and comprehended in existing law beyond any possibility for fairminded disagreement.” Richter, 562 U.S. at 103.
Petitioner has not demonstrated such an error. In light
of the foregoing, the Court ADOPTS the R&R and DENIES Petitioner’s remaining habeas claim.

18a
III. Evidentiary Hearing
The Court briefly addresses the issue of an evidentiary hearing. Petitioner’s habeas Petition does not explicitly move for an evidentiary hearing. “In habeas
proceedings, an evidentiary hearing is required when
the petitioner’s allegations, if proven, would establish
the right to relief.” Totten v. Merkle, 137 F.3d 1172,
1176 (9th Cir. 1998) (citing Campbell v. Wood, 18 F.3d
662, 679 (9th Cir. 1994); and Townsend v. Sain, 372 U.S.
293, 312 (1963)). “However, an evidentiary hearing is
not required on issues that can be resolved by reference to the state court record.” Id. (citing Campbell, 18
F.3d at 679; and United States v. Moore, 921 F.2d 207,
211 (9th Cir. 1990); and United States v. Birtle, 792 F.2d
846, 849 (9th Cir. 1986)).
The parties generally do not dispute the facts and
Petitioner’s arguments were for legal, not factual error.
Accordingly, the issues Petitioner raised may be resolved to the state court record and an evidentiary
hearing is not warranted.
IV. Certificate of Appealability
Petitioner does not request a certificate of appeal
ability. When a district court enters a final order adverse to a petitioner in a habeas proceeding, it must
either issue or deny a certificate of appealability, which
is required to appeal a final order in a habeas corpus
proceeding. See 28 U.S.C. § 2253(c)(1)(A). A petitioner
seeking a writ of habeas corpus has no absolute entitlement to appeal a district court’s denial of his

19a
petition, but may only appeal in certain circumstances.
Miller–El, 537 U.S. at 335–36. The federal rules governing habeas cases brought by state prisoners require
a district court that dismisses or denies a habeas petition to grant or deny a certificate of appeal ability in
its ruling. See Rule 11(a), Rules Governing § 2254
Cases, 28 U.S.C. foll. § 2254. For the reasons set forth
above, Petitioner has not shown “that reasonable jurists of reason would find it debatable whether the district court was correct in its procedural ruling.” Slack
v. McDaniel, 529 U.S. [473], 484 (2000). Accordingly, the
Court DECLINES to issue a certificate of appeal ability.
CONCLUSION
For the foregoing reasons, the Court ADOPTS the
R&R, (ECF No. 18), and DENIES each claim of Petitioner’s Petition for Habeas Corpus, (ECF No. 1). Because this Order concludes litigation in this matter, the
Clerk SHALL close the file.
IT IS SO ORDERED.
Dated: May 18, 2018 /s/ Janis L. Sammartino
Hon. Janis L. Sammartino
United States District Judge

20a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
MICHAEL BARAKA MASON, Case No.: 16-CV-1176
JLS (MDD)
Petitioner,
v.
DANIEL PARAMO, Warden,
et al.,
Respondents.

ORDER (1) ADOPTING REPORT AND
RECOMMENDATION;
AND (2) GRANTING
IN PART MOTION
TO DISMISS
(ECF No. 26)

Presently before the Court are: (1) Respondent
Daniel Paramo’s Motion to Dismiss the Petition for
Writ of Habeas Corpus as a Mixed Petition, and Claim
2 as Unexhausted and Untimely, (“MTD,” ECF No. 18);
(2) Magistrate Judge Mitchell D. Dembin’s Report and
Recommendation (“R&R”) advising that the Court
should grant in part Respondent’s MTD, (ECF No. 26);
and (3) Petitioner’s Objections to the R&R, (“R&R
Objs.,” ECF No. 27). Respondent did not file a reply to
Petitioner’s Objections. After considering the parties’
arguments and the law, the Court (1) OVERRULES
Petitioner’s Objections, (2) ADOPTS the relevant portions of the R&R, and (3) GRANTS IN PART Respondent’s Motion to Dismiss.

21a
BACKGROUND
Judge Dembin’s R&R contains a thorough and accurate recitation of the factual and procedural histories underlying the instant Petition for Writ of Habeas
Corpus. (See R&R 2–4.) This Order incorporates by reference the background as set forth therein.
LEGAL STANDARD
Federal Rule of Civil Procedure 72(b) and 28
U.S.C. § 636(b)(1) set forth a district court’s duties regarding a magistrate judge’s report and recommendation. The district court “shall make a de novo
determination of those portions of the report . . . to
which objection is made,” and “may accept, reject, or
modify, in whole or in part, the findings or recommendations made by the magistrate judge.” 28 U.S.C.
§ 636(b)(1)(c); see also United States v. Raddatz, 447
U.S. 667, 673–76 (1980). In the absence of a timely objection, however, “the Court need only satisfy itself that
there is no clear error on the face of the record in order
to accept the recommendation.” Fed. R. Civ. P. 72 advisory committee’s note (citing Campbell v. U.S. Dist.
Court, 510 F.2d 196, 206 (9th Cir. 1974)).
ANALYSIS
I.

Summary of the R&R Conclusion

On May 11, 2016 Petitioner filed a Petition for
Writ of Habeas Corpus in this district. (“Petition,” ECF
No. 1.) Petitioner challenges his conviction on two

22a
grounds: (1) the trial court erred in admitting the preliminary hearing testimony of Hana Jabbar at trial;
and (2) Petitioner received ineffective assistance of
counsel when his attorney failed to challenge the trial
court’s decision to permit the guilty verdict to stand
and the case to proceed to sentencing when Juror 4 expressed she had reasonable doubt after the verdict was
given. (R&R 21 (citing Petition 12–13).)
On October 25, 2016, Respondent Paramo filed a
Motion to Dismiss the Petition. (ECF Nos. 18, 19.) Respondent conceded that ground one was exhausted and
thus reviewable by this Court, but argued that ground
two was unexhausted and untimely, thus counseling
dismissal of both claims. (R&R 4 (citing ECF No. 18, at
9).) Petitioner acknowledged that ground two was unexhausted, but argued that the Court should stay the
case pending exhaustion of ground two of the Petition,
or, in the alternative, to dismiss only ground two. (Id.
(citing ECF No. 25, at 8).)
Judge Dembin first concluded that the Petition
was timely, (R&R 5), and next considered whether the
Court should stay the Petition pending exhaustion of
ground two in state court under either Kelly v. Small,
315 F.3d 1063 (9th Cir. 2002), abrogated on other
grounds by Robbins v. Carey, 481 F.3d 1143 (9th Cir.
2007), or Rhines v. Weber, 544 U.S. 269 (2005). Judge

1

Pin citations to docketed material refer to the CM/ECF
numbers electronically stamped at the top of each page.

23a
Dembin first concluded that a stay under Kelly2 would
be futile “because the statute of limitations already expired and Petitioner is not entitled to toll the limitations period or to relate his unexhausted claim back to
ground one of the Petition.” (R&R 8.) Second, Judge
Dembin concluded that a stay under Rhines3 would be
inappropriate because Petitioner did not demonstrate
good cause for failing to raise his unexhausted claim in
state court and that Petitioner’s claim is not potentially meritorious. (Id. at 9–15.) Without any basis for
a stay, Judge Dembin recommends that the Court partially grant Respondent’s motion and dismiss ground
two of the Petition with prejudice. (Id. at 16.)
II.

Summary of Petitioner’s Objections

Petitioner solely objects to Judge Dembin’s conclusion that a stay is not warranted under Rhines. (R&R
2

“Kelly permits a district court to dismiss unexhausted
claims and stay the remaining claims pending exhaustion of the
dismissed claims. Kelly, 315 F.3d at 1070–71. The petitioner must
seek to add the dismissed claims back in through amendment after exhausting them in state court before the AEDPA statute of
limitations expires. King v. Ryan, 564 F.3d 1133, 1138–41 (9th
Cir. 2009).” (R&R 6–7.)
3
“Rhines permits a district court to stay a mixed petition in
its entirety. King, 564 F.3d at 1139–40. To stay the entire mixed
petition without dismissing unexhausted claims, the petitioner
must show good cause for failing to exhaust the claims in state
court before filing the federal petition and that the unexhausted
claims are not ‘plainly meritless.’ Rhines, 544 U.S. at 277–78. A
stay under Rhines is inappropriate where the petitioner has engaged in ‘abusive litigation tactics or intentional delay.’ Id.” (R&R
8–9.)

24a
Objs. 2.) First, Petitioner argues that Judge Dembin
erred in relying on the prejudice prong of the Strickland4 standard, as applied to claims for ineffective assistance of counsel, because it has no bearing on the
“good cause” determination under Rhines. (Id. at 3.)
Second, as to the potential merit of Petitioner’s claim,
Petitioner argues that Judge Dembin’s reliance on the
Strickland prejudice standard improperly heightened
the burden for ordering a stay. (Id. at 4.)
III. Court’s Analysis
Given Petitioner’s Objections, the Court will review, de novo, whether the Court should stay the Petition pending exhaustion of ground two pursuant to
Rhines.
Rhines permits a district court to stay a mixed petition (i.e., a petition with exhausted and unexhausted
claims) in its entirety. King v. Ryan, 564 F.3d 1133,
1139–40 (9th Cir. 2009). To stay the entire mixed petition without dismissing unexhausted claims, the petitioner must show (A) good cause for failing to exhaust
the claims in state court before filing the federal petition, (B) that the unexhausted claims are not “plainly
meritless,” and (C) that the petitioner has not engaged
in “abusive litigation tactics or intentional delay.”
Rhines, 544 U.S. at 277–78; see also King, 564 F.3d at
1139.

4

Strickland v. Washington, 466 U.S. 668 (1984).

25a
A. Good Cause
The first factor in a Rhines analysis is whether Petitioner has demonstrated good cause for failing to
raise his unexhausted claim in state court. “There is
little authority on what constitutes good cause to excuse a petitioner’s failure to exhaust.” Blake v. Baker,
745 F.3d 977, 980 (9th Cir. 2014); Pace v. DiGuglielmo,
544 U.S. 408, 416–17 (2005). But the Ninth Circuit has
recently explained that
[t]he good cause element is the equitable component of the Rhines test. It ensures that a
stay and abeyance is available only to those
petitioners who have a legitimate reason for
failing to exhaust a claim in state court. As
such, good cause turns on whether the petitioner can set forth a reasonable excuse, supported by sufficient evidence, to justify that
failure.
Blake, 745 F.3d at 982 (citing Pace, 544 U.S. at 416).
Thus, the Blake Court held that ineffective assistance
“by post-conviction counsel can be good cause for a
Rhines stay” where a petitioner’s showing of good
cause is concrete and reasonable, not a bare allegation
of ineffective assistance of counsel. Id. at 983.
As an initial matter, the Court agrees with Petitioner that a discussion of the merits of Petitioner’s ineffective assistance of counsel (“IAC”) claim should not
be considered in the “good cause” portion of the Rhines
analysis. Rather, the Court should simply determine
whether Petitioner’s excuse for failing to exhaust the

26a
claim is reasonable and supported by sufficient evidence. See Blake, 745 F.3d at 982.
The Court finds that Petitioner has demonstrated
good cause under Rhines. As background, part of Petitioner’s IAC claim is that his appellate counsel failed
to raise any issues regarding Juror 4 in his appeal.
(R&R 11 (citing ECF No. 25, at 5; Lodg. Nos. 3, 5, 7).)
Specifically, Juror 4 expressed she had “reasonable
doubt . . . on certain counts” after the guilt phase and
during the penalty phase of Petitioner’s trial. (Id. at 10
(citing ECF No. 1, at 104).) After some discussion, Petitioner’s trial counsel requested that the jury return
to the jury room and reopen their deliberations or, in
the alternative, a mistrial. (Id. at 10–11 (citing ECF
No. 1, at 104–106; 157).) The trial court denied the requests. (Id. (citing ECF No. 101, at 127–176).) While
Petitioner’s trial counsel raised the issue, Judge
Dembin found that Petitioner’s appellate counsel failed
to raise any issues regarding Juror 4. (R&R 11.) Importantly for the “good cause” analysis, Judge Dembin
found that
[t]he record supports Petitioner’s argument
that appellate counsel failed to raise any issues regarding Juror 4. (ECF No. 25 at 5;
Lodg. Nos. 3, 5, 7). Appellate counsel did not
include this claim in the appellate brief, reply
brief or the petition for review in the California Supreme Court, despite the fact that the
Reporter’s Transcript includes approximately
65 pages on the issue. (Lodg. Nos. 3, 7; ECF
No. 1 at 99–122, 127–152, 157–176). Petitioner has also shown that he relied upon the

27a
assurances of his trial and appellate counsel
that they would raise any necessary claims for
him. (See ECF No. 1 at 13) (indicating that Petitioner thought his attorney raised this issue
in his Petition for Review). Petitioner has
made a sufficient showing that his appellate
attorney may have acted unreasonably because he had notice of the juror claim and
failed to exhaust the claim by presenting it to
the state’s highest court.
(Id. at 11–12.) After a review of the record, the Court
agrees with Judge Dembin’s assessment and thus finds
that Petitioner has adequately demonstrated good
cause for failing to raise his unexhausted claim in state
court (specifically, he demonstrated that he relied on
his appellate counsel to raise such claims on his behalf ). Nothing more is needed for this consideration.
Thus, while Judge Dembin goes on to assess the merits
of Petitioner’s IAC claim in his “good cause” analysis,
(id. at 12–15), and ultimately concludes that Petitioner
has not shown “good cause” as a result of that assessment, that analysis is more appropriately presented
under the claim merit analysis. Accordingly, the Court
will consider that portion of Judge Dembin’s analysis
below, infra Part III.B.
B. Potential Merit of Petitioner’s Claim
The second factor in a Rhines analysis is whether
a petitioner’s claims are “plainly meritless,” Rhines,
544 U.S. at 277, or, stated differently, are “potentially
meritorious,” id. at 278.

28a
As a threshold matter, the Court disagrees with
Petitioner’s argument that the Court cannot consider
the prejudice prong of Strickland in assessing his IAC
claim. As discussed below, prejudice is a required element of an IAC claim, and thus the Court must consider it to determine whether Petitioner’s IAC claim
has some merit. See, e.g., Gonzalez v. Wong, 667 F.3d
965, 982 (9th Cir. 2011) (considering the prejudice/
materiality prong of a potential Brady v. Maryland,
373 U.S. 83 (1963), violation in the context of a Rhines
merits analysis). But Petitioner further argues that
the second Rhines consideration, whether a claim is
“plainly meritless” or “potentially meritorious,” is a
generous standard and thus does not require him to
demonstrate that he will definitely prevail or even that
he is likely to prevail on the merits. (R&R Objs. 4.) The
Court agrees with Petitioner on this point, and notes
that this approach is consistent with the Ninth Circuit’s jurisprudence in Rhines analyses. See, e.g., Gonzalez, 667 F.3d at 980 (“Our discussion below is only to
demonstrate why we conclude that Gonzales has a colorable or potentially meritorious Brady claim such
that a reasonable state court could find a Brady violation.” (emphases added).) Accordingly, the Court conducts its analysis of Petitioner’s IAC claim with this
standard in mind.
“In order to establish ineffective assistance of
counsel, a petitioner must prove both deficient performance by his counsel and prejudice caused by the deficiency.” Gonzalez, 667 F.3d at 987. “To demonstrate
deficient performance [Petitioner] must show that

29a
counsel’s performance ‘fell below an objective standard
of reasonableness’ based on ‘the facts of the particular
case [and] viewed as of the time of counsel’s conduct.’ ”
Id. (citing Strickland v. Washington, 466 U.S. 668, 688–
90 (1984)). “In order to establish prejudice [Petitioner]
‘must show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.’ ” Id. (citing Strickland, 466
U.S. at 694).
As discussed, the crux of Petitioner’s IAC claim is
that his counsel—both trial and appellate—failed to
inquire into the reason for Juror 4’s doubt or raise the
issue on appeal. (R&R Objs. 5; see also ECF No. 25, at
4–5; ECF No. 1, at 13.) Specifically, Petitioner argues
that as a result of Juror 4’s doubt, the jury’s verdict
was not unanimous, thus violating his constitutional
rights to a unanimous jury verdict. (R&R 12; Objs 4–5;
ECF No. 25, at 5; ECF No. 1, at 13.) Judge Dembin recounted the factual and procedural basis for Petitioner’s IAC claim as follows:
Petitioner focuses on circumstantial evidence
showing that “counsel [failed] to raise any issues regarding Juror 4 [which shows] counsel’s
ineffective assistance [and] demonstrates good
cause for failing to exhaust his claim.” (ECF
No. 25 at 5). In his Petition, Petitioner attaches a Reporter’s Transcript where Juror 4
expressed she had “reasonable doubt . . . on
certain accounts” after the guilt phase and
during the penalty phase of the trial. (ECF

30a
No. 1 at 104). The record reflects that the trial
judge asked Juror 4 why she did not express
her reasonable doubt when he polled the jury.
(ECF No. 1 at 104–05). Juror 4 stated she had
“basically overcome the doubt that [she] had.
And it continued to come up in [her] mind [after the verdicts were returned and during the
intervening time.]” (Id. at 105). Juror 4 then
stated that at the time the verdict was given,
she supported the verdict and it was her verdict, but that she still wanted to speak privately with the judge to discuss “very specific”
allegations or charges. (Id. at 106). The trial
judge asked whether Juror 4 understood what
reasonable doubt means and whether she had
done outside research. (Id. at 105–06). Juror 4
explained she understood what reasonable
doubt means and that she had not done outside research. (Id.). The trial judge then explained that speaking privately with Juror 4
would be inappropriate and indicated that
nothing Juror 4 said raised issues regarding
juror misconduct. (Id.).
In response to Juror 4’s statement, Petitioner’s trial counsel requested “the jury be directed to return to the jury room and reopen
their deliberations concerning issues in the
guilt phase,” or in the alternative, requested a
mistrial. (Id. at 157). The People requested
the court determine whether Juror 4 should
be excused for cause. (Id. at 169). On November 16, 2012, the court permitted oral argument on the issues and ultimately concluded
that “[t]here is nothing to correct at the present time. Those verdicts were polled and

31a
recorded. The fact she has now had some
buyer’s remorse, as suggested, that opens a
pandora’s box for incredible mischief.” (Id. at
170). The court did not reopen jury deliberations, did not grant a mistrial and did not excuse Juror 4 for cause. (Id. at 127–176).
(R&R 10–11.)
As an initial matter, the Court agrees with Petitioner and Judge Dembin that, because his case was a
capital case, Petitioner had a constitutional right to a
unanimous jury under California law and possibly under Federal law as well. (R&R 12); see also People v.
Collins, 17 Cal. 3d 687, 693 (1976) (California law requires unanimous jury verdict in criminal cases); cf.
Schad v. Arizona, 501 U.S. 624, 634 n.5 (1991) (“[A]
state criminal defendant, at least in noncapital cases,
has no federal right to a unanimous jury verdict. . . .”).
Nevertheless, Judge Dembin found that Petitioner had
not made a well-argued claim of unanimous jury infringement or juror misconduct. (R&R 12.) Specifically,
Judge Dembin found that
[e]ven if a unanimous jury is constitutionally
required, there was a unanimous jury verdict
and, when individually polled, no juror expressed any equivocation or hesitation regarding the verdict. (Lodg. No. 1-48 at 7915–
30). Specifically, the Court asked “Juror No. 4,
were these and are these your personal verdicts as read by the court?” (Id. at 7929). Juror
4 responded “yes.” (Id.). Additionally, Juror 4
told the court that she overcame her reasonable doubt before giving the verdict. (ECF No.

32a
1 at 105). Accordingly, no right to a unanimous
jury verdict was infringed in this case. Leon v.
Cate, 617 Fed.Appx. 783, 783 (9th Cir. 2015)
(“The jury returned a verdict, the clerk read it
in open court, the jury collectively affirmed it
without dissent, and it was recorded. . . . [T]he
validity of the verdict was not subject to attack at that point unless [the petitioner] established that the jury committed prior
misconduct in reaching the verdict.”); see
Fuentes v. Adams, No. SA CV 06-182-GW
(CW), 2015 U.S. Dist. LEXIS 180156, at *4748 (C.D. Cal. Sept. 2, 2015) (A Magistrate
Judge’s Report and Recommendation, which
found no infringement of a unanimous jury
verdict where the record showed that all jurors had been po[l]led and supported the
verdict); see also Fuentes v. Adams, No. SA CV
06-182-GW (CW), 2016 U.S. Dist. LEXIS
98346 (adopting the Magistrate Judge’s Report and Recommendation).
(R&R 12–13.)
But despite the appearance of a unanimous jury
verdict, Petitioner’s core objection to Judge Dembin’s
analysis is premised on unexplored potential juror
misconduct. Specifically, Petitioner acknowledges that
while the jury was unanimously polled, the “record reflects that Juror 4’s statements raised serious questions regarding whether [Petitioner] had been
deprived of a unanimous jury not influenced by juror
misconduct [because] neither the trial court nor [Petitioner’s] own trial counsel insisted on an adequate

33a
inquiry to ensure that [Petitioner’s] rights were protected.” (R&R Objs. 4–5.)
Judge Dembin disagreed with this juror misconduct claim, finding that
[a] unanimous verdict may still be attacked if
the verdict was subject to juror misconduct
prior to reaching the verdict. Leon, 617
Fed.Appx. at 783. Thus, the Court must consider whether the Sixth Amendment’s guarantee of the right to a “fair trial by a panel of
impartial, ‘indifferent’ jurors” to criminal defendants was infringed when Juror 4 expressed reasonable doubt after conviction.
Irvin v. Dowd, 366 U.S. 717, 722 (1961); see
Dyer v. Calderon, 151 F.3d 970, 973 (9th Cir.
1998).
“If only one juror is unduly biased or prejudiced or improperly influenced, the criminal
defendant is denied his Sixth Amendment
right to an impartial panel.” United States v.
Hendrix, 549 F.2d 1225, 1227 (9th Cir. 1997).
In the event of a jury misconduct or juror bias
allegation, the court should hold a hearing
with all interested parties. See Remmer v.
United States, 347 U.S. 227, 229–30 (1954);
see also Smith v. Phillips, 455 U.S. 209, 216–
17 (1982). However, the “near-universal and
firmly established common-law rule in the
United States flatly prohibit[s]” the admission
of juror testimony to impeach a verdict except where “an extraneous influence” affected
the verdict. Tanner v. United States, 483 U.S.
107, 117 (1983) (citations omitted); see also

34a
McDonald v. Pless, 238 U.S. 264, 269 (1915)
(generally, jurors may not impeach their own
verdict). Both the Federal Rules of Evidence
and the California Evidence Code prohibit the
use of juror testimony to impeach a verdict
when testimony relates to the internal mental
process of the verdict. See FED. R. EVID.
606(b); CAL. EVID. CODE § 1150(a).
The Court finds that there was no evidence of
juror misconduct in this case. Juror 4’s expression of reasonable doubt about specific allegations or charges after the verdict was given
concerns her thought process and the jury’s
internal deliberations, as opposed to testimony regarding extrinsic influence or juror
bias, which is “flatly prohibited” to impeach
the jury’s verdict. See Tanner, 483 U.S. at 117.
Thus, Juror 4’s statement does not constitute
grounds for reversal of the verdict. See Panella v. Marshall, 434 Fed.Appx. 603, 605 (9th
Cir. 2011); see also Franklin v. McEwen, No.
SACV 12-1514-DDP (OP), 2013 U.S. Dist.
LEXIS 180861, at *46-50 (C.D. Cal Sept. 26,
2013) (finding a juror’s post-verdict statement
apologizing for voting to convict the petitioner
and explaining “that ‘most of the jurors
wanted to give defendant not guilty’ ” insufficient to reverse the verdict).
(R&R 14–15.)
Petitioner objects to this conclusion, arguing that
without conducting any further inquiry of Juror 4, “it
was impossible to determine whether the juror simply
had ‘buyer’s remorse,’ or whether her concerns were

35a
based on some other factors such as having been coerced or having been influenced by impermissible juror
conduct.” (R&R Objs. 4–5.) In other words, Petitioner
argues that this conclusion “fails to recognize the inadequacy of the inquiry conducted and trial counsel’s ineffective representation. It is precisely due to the trial
court’s failure to conduct an adequate inquiry with respect to Juror 4, and trial counsel’s ineffective failure
to request such an inquiry, that the reasons for Juror
4’s reasonable doubt remains unknown. Thus it is impossible to conclude that juror misconduct did not occur, and in fact the nature of Juror 4’s approach to the
trial court suggests that her concerns were indeed
grounded in something other than her own state of
mind.” (Id. at 7–8.)
After a review of the record, the Court disagrees
with Petitioner, and in particular Petitioner’s suggestion that “it is impossible to conclude that juror misconduct did not occur, and in fact the nature of Juror
4’s approach to the trial court suggests that her concerns were . . . grounded in something other than her
own state of mind.” (Id.) To the contrary, the record
shows that the court questioned Juror 4 about her concerns and Juror 4 responded that her concerns were
premised on her understanding of reasonable doubt,
not any jury—or other—misconduct. Juror 4 wrote a
note to the court stating that she “would like to address
the court regarding reasonable doubt.” (ECF No. 1, at
99–100.) Juror 4 asked to meet in private, and the
court denied her request. (Id. at 103–104.) When asked
what she wanted to address regarding reasonable

36a
doubt, Juror 4 said she “wanted to address . . . just the
idea of reasonable doubt. . . .” (Id. at 104.) The court
asked if she did not understand the definition of reasonable doubt, and she replied “[n]o, no. I understand.”
(Id.) Juror 4 simply “wanted to address . . . the reasonable doubt that [she] had on certain counts.” (Id.)
Then the following exchange took place:
Q [court]: Why did you vote guilty then and
find those allegations to be true? Why did
you—when I looked you in the eye and polled
the jurors individually and asked you, “Were
these and are these your verdicts as I’ve just
read them,” why didn’t you tell me you had
some reasonable doubt?
A [Juror 4]: Yeah, you know, I—I, ah, should
have said it then.
Q:

Yes, you should have. Why didn’t you?

A: I—I didn’t. I went with—we were—had
been deliberating and—and, um, I thought
that I could just—I thought I had, um, basically overcome the doubt that I had. And it
continued to come up in my mind.
Q:

After the verdicts had been returned?

A:

Correct.

Q:

And during the intervening time?

A:

Correct.

Q:

Now you thought about it some more?

A:

Correct.

37a
Q: So when you indicated those were and are
your verdicts—
A:

Yes.

Q:

—they were?

A:

Yes.

Q:

They were your verdicts; is that correct?

A:

Sure. Yes.

Q: Well, have you done some independent
research then on reasonable doubt?
A:

No. Just in thinking about it.

Q:

What?

A:

In thinking about it, in—

Q: Well, you understand the definition of
reasonable doubt.
A:

Yes.

Q:

Is that a “yes”?

A:

Yes.

Q: We—you heard that repeatedly throughout the trial here in the courtroom and you
had that in writing, that definition.
A:

I did.

Q: Intellectually, if you will, you understood
what those words mean in the context of proof
beyond a reasonable doubt?
A:

Yes.

38a
Q: Okay. Step outside for a minute. Let me
talk to counsel.
A: Okay. And if I may, too, the purpose of this
was—I mean, I thought I would be able to discuss more in detail, ah, about what may be—
I don’t know—with you in detail. But if that’s
impossible—
Q: Well, the concerns you have relate to specific allegations or specific—
A:

Yes.

Q:

—charges?

A: Yeah. I mean, very specific. It’s totally
specific.
Q:

Well, that may or may not be appropriate.

A:

Okay.

Q:

I don’t think it’s appropriate at this point.

A:

Okay.

THE COURT: Um, all right. Why don’t you
step outside just for a moment.
(Id. at 105–07.) Viewing this exchange as a whole, the
Court finds that, contrary to Petitioner’s objections, Juror 4’s concerns appeared to center on her internal
struggle with reasonable doubt, particularly after she
delivered her verdict. Such testimony is “flatly prohibited” to impeach the jury’s verdict. See Tanner, 483 U.S.
at 117. True, as Petitioner notes the court did not conduct a further inquiry into Juror 4’s concerns or specifically ask why she wanted to meet privately with the

39a
court. But there is nothing in her exchange with the
court that suggests that such a request was to discuss
juror—or other—misconduct that might otherwise
have supported a further investigation into Juror 4’s
concerns. Nor does Petitioner provide any specific citation to the record that would so suggest. And, even
then, not all allegations of juror misconduct are admissible. See, e.g., Franklin v. McEwen, 2013 WL 6817662,
at *18 (C.D. Cal. Dec. 20, 2013) (citing Estrada v.
Scribner, 512 F.3d 1227, 1237 (9th Cir. 2008) (juror’s
declaration that he felt pressured to vote guilty inadmissible evidence of subjective mental process); Panella v. Marshall, 434 Fed.Appx. 603, 605 (9th Cir. 2011)
(rejecting habeas claim that juror misconduct—foreperson’s non-physical coercion of another juror to
change her vote—warranted reversal of conviction
where record supported state court’s finding that allegations described no more than permissible “heated
discussions that naturally occur at times during jury
deliberations”)).
In sum, the Court finds that Petitioner’s claims
that his right to a unanimous jury was infringed or
that there was potential jury misconduct are not potentially meritorious. Consequently, his IAC claim
premised on trial counsel’s failure to conduct further
investigation into Juror 4 and appellate counsel’s failure to raise the issue on appeal is also not potentially
meritorious (i.e., Petitioner suffered no prejudice based
on his counsel’s alleged failures in this regard). Thus,
the Court concludes that a stay under Rhines is inappropriate. (Cf. R&R 14–15 (“Because Petitioner’s right

40a
to a unanimous jury was not infringed and there was
no juror misconduct, any deficienc[ies] in failing to
raise these issues on appeal or in state post-conviction
applications for collateral relief were not prejudicial
under Strickland v. Washington. This is inadequate to
show ineffective assistance of counsel for purposes of a
Rhines stay.”).) Accordingly, the Court OVERRULES
Petitioner’s Objections.5
CONCLUSION
For the reasons stated above, the Court (1) OVERRULES Petitioner’s Objections, (2) ADOPTS the relevant portions of Judge Dembin’s R&R, and (3)
GRANTS IN PART Respondent’s Motion to Dismiss.
Accordingly, the Court DISMISSES WITH PREJUDICE only ground two of the Petition. Petitioner may
proceed with ground one of his Petition in this Court.
IT IS SO ORDERED.
Dated: June 6, 2017
/s/ Janis L. Sammartino
Hon. Janis L. Sammartino
United States District Judge

5

For this reason the Court does not discuss the third factor
of the Rhines analysis.

41a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
MICHAEL BARAKA MASON, Case No.: 16cv1176JLS-MDD
Petitioner,
v.
DANIEL PARAMO, et al.,
Respondents.

REPORT AND
RECOMMENDATION
OF UNITED STATES
MAGISTRATE
JUDGE RE:
RESPONDENT’S
MOTION TO
DISMISS PETITION
FOR WRIT OF
HABEAS CORPUS
[ECF No. 18]

This Report and Recommendation is submitted to
United States District Judge Janis L. Sammartino pursuant to 28 U.S.C. § 636(b)(1) and Local Civil Rule
72.1(c) of the United States District Court for the
Southern District of California.
For the reasons set forth herein, the Court RECOMMENDS that Respondent’s Motion to Dismiss be
GRANTED IN PART.

42a
I.

PROCEDURAL HISTORY

A. Federal Proceedings
On May 11, 2016, Michael Baraka Mason (“Petitioner”), a state prisoner, constructively filed a Petition
for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254
in this district. (ECF No. 1). Petitioner challenges his
conviction on two grounds: (1) the trial court erred in
admitting the preliminary hearing testimony of Hana
Jabbar at trial; and (2) Petitioner received ineffective
assistance of counsel when his attorney failed to challenge the trial court’s decision to permit the guilty verdict to stand and the case to proceed to sentencing
when Juror 4 expressed she had reasonable doubt after
the verdict was given. (Id. at 12-13).1
On October 25, 2016, Respondent Paramo (“Respondent”)2 filed a Motion to Dismiss the Petition, a
Memorandum of Points and Authorities in support and
lodgments. (ECF Nos. 18, 19). Petitioner filed an opposition on January 13, 2017. (ECF No. 25). In his opposition, Petitioner requests that the Court stay the case
pending exhaustion of ground two of the Petition, or in
the alternative, to dismiss only ground two. (Id. at 8).

1

All pincite page references refer to the automatically generated ECF page number, not the page number in the original
document.
2
Respondent Kamala Harris has not yet appeared in this action. (See Docket). For purposes of this Report and Recommendation “Respondent” will refer to Respondent Paramo only.

43a
B. State Court Proceedings
On November 7, 2012, a jury convicted Petitioner
of: (1) three counts of first degree murder and found
true the special circumstances of robbery-murder and
multiple murders as to each; (2) one count of attempted
murder; (3) two counts of attempted robbery; (4) one
count of burglary; (5) five counts of false imprisonment
by violence; (6) one count of assault with a firearm; (7)
two counts of shooting at an inhabited dwelling; and
(8) four counts of possession of a firearm by a felon.
(Lodg. No. 2-6 at 1465-502). The jury also found true
several gang and firearms-related sentencing enhancements and Petitioner admitted two prior serious
felony convictions and three “strike priors.” (Id.). On
April 4, 2013, the trial court sentenced Petitioner to
nine consecutive terms of life imprisonment without
the possibility of parole, an indeterminate term of 337
years and six months to life imprisonment, plus an additional 110 years. (Lodg. Nos. 2-7 at 1777-85; 1-49 at
7969-70).
On April 11, 2013, Petitioner constructively filed a
Notice of Appeal. (Lodg. No. 2-7 at 1785). Petitioner argued: (1) the trial court erroneously admitted the prior
testimony of Hana Jabbar; (2) the trial court erroneously admitted the out-of-court statements of informant Marquis Veal recounting statements made by
Petitioner’s accomplice; (3) the evidence does not support Petitioner’s multiple convictions for possession of
the same firearm on different days because that crime
is a single, continuous offense; and (4) the life imprisonment without parole sentences should not have been

44a
tripled under the Three Strikes law. (Lodg. Nos. 3 at
32-79; 6 at 3). The state appellate court reversed all but
one of Petitioner’s possession of a firearm convictions,
modified the judgment to reflect a total of three life
sentences without the possibility of parole and affirmed the judgment in all other respects. (Lodg. No. 6
at 13-30).
On January 14, 2015, Petitioner filed a Petition
for Review in the California Supreme Court, arguing
the trial court erroneously: (1) admitted the prior
testimony of Hana Jabbar; and (2) admitted the out-ofcourt statements of informant Marquis Veal recounting statements made by Petitioner’s accomplice. (Lodg.
No. 7 at 3-23). On March 11, 2015, the California Supreme Court denied the Petition for Review. (Lodg. No.
8).
II.

SCOPE OF REVIEW

This Petition is governed by 28 U.S.C. § 2254(a),
which provides the scope of review for federal habeas
corpus claims:
The Supreme Court, a Justice thereof, a circuit judge, or a district court shall entertain
an application for a writ of habeas corpus in
[sic] behalf of a person in custody pursuant to
the judgment of a State court only on the
ground that he is in custody in violation of the
Constitution or laws or treaties of the United
States.
28 U.S.C. § 2254(a) (2006 & Supp. 2016).

45a
III.

DISCUSSION

Respondent contends that the entire Petition
should be dismissed because ground two of the Petition
is unexhausted and untimely. (See ECF No. 18). Respondent acknowledges that ground one of the Petition
is both exhausted and timely, but asserts that petitions
with both exhausted and unexhausted claims must be
dismissed. (Id. at 9).
Petitioner concedes that ground two of the Petition
is unexhausted, but argues that the Court should stay
the Petition and allow Petitioner to return to state
court to exhaust ground two, or in the alternative, allow Petitioner to amend the Petition to proceed only on
the first ground. (ECF No. 25 at 1, 8). Petitioner also
asserts that the Petition is timely. (Id. at 6-8).
A. Statute of Limitations
The AEDPA imposes a one-year statute of limitations on federal petitions for writ of habeas corpus filed
by state prisoners after April 24, 1996. 28 U.S.C.
§ 2244(d) (2006 & Supp. 2016). The one-year statute of
limitations period applies to all habeas petitions filed
by persons “in custody pursuant to the judgment of a
State court.” Id. at § 2244(d)(1). The one-year limitation period begins to run from the latest of:
(A) the date on which the judgment became
final by the conclusion of direct review or the
expiration of the time for seeking such review;

46a
(B) the date on which the impediment to filing an application created by State action in
violation of the Constitution or laws of the
United States is removed, if the applicant was
prevented from filing by such State action;
(C) the date on which the constitutional
right asserted was initially recognized by the
Supreme Court, if the right has been newly
recognized by the Supreme Court and made
retroactively applicable to cases on collateral
review; or
(D) the date on which the factual predicate
of the claim or claims presented could have
been discovered through the exercise of due
diligence.
Id. at § 2244(d)(1)(A)-(D). The period of direct review
in § 2244(d)(1)(A) includes the ninety-day period
within which a petitioner can file a petition for a writ
of certiorari regardless of whether the petitioner seeks
such review. Bowen v. Roe, 188 F.3d 1157, 1158-59 (9th
Cir. 1999). “AEDPA’s one-year statute of limitations
begins to run on the date the ninety-day period . . . expires.” Id. at 1159.
On March 11, 2015, the California Supreme Court
denied Petitioner’s petition for review. (Lodg. No. 8).
Petitioner did not file a writ of certiorari. Thus, the
statute of limitations under AEDPA began to run on
June 9, 2015 (ninety-days after the California Supreme Court denied Petitioner’s petition for review),
and expired on June 9, 2016. The instant action was
constructively filed on May 11, 2016 – just under one

47a
month before the statute of limitations expired. Thus,
the Petition is timely.
B. Exhaustion and the Stay and Abeyance
Procedure
Habeas petitioners who wish to challenge their
state court conviction or the length of their confinement in state prison must first exhaust state judicial
remedies. 28 U.S.C. § 2254(b)-(c); Granberry v. Greer,
481 U.S. 129, 133-34 (1987) (“[A]s a matter of [federalstate] comity, federal courts should not consider a
claim in a habeas corpus petition until after the state
courts have had an opportunity to act.”) (citing Ex
Parte Royall, 117 U.S. 241, 251 (1886)). Petitioner and
Respondents agree that ground two of the federal petition is unexhausted and that the Petition is “mixed.”
See Rose v. Lundy, 455 U.S. 509, 510 (1982); (See also
ECF Nos. 1, 18, 25). The Court cannot adjudicate the
merits of a habeas petition containing any claim as to
which state remedies have not been exhausted. See id.
at 522; 28 U.S.C. § 2254(b)(2) (petition may be denied,
but not granted, notwithstanding failure to exhaust).
The Court can either dismiss a mixed petition in its
entirety or grant a stay. Rose, 455 U.S. at 510; Rhines
v. Weber, 544 U.S. 269, 277-78 (2005); Kelly v. Small,
315 F.3d 1063 (9th Cir. 2002). A stay may be appropriate under either Kelly or Rhines. See Rhines, 544 U.S.
269; see also Kelly, 315 F.3d 1063.

48a
1.

Stay Pursuant to Kelly

Kelly permits a district court to dismiss unexhausted claims and stay the remaining claims pending
exhaustion of the dismissed claims. Kelly, 315 F.3d at
1070-71. The petitioner must seek to add the dismissed
claims back in through amendment after exhausting
them in state court before the AEDPA statute of limitations expires. King v. Ryan, 564 F.3d 1133, 1138-41
(9th Cir. 2009).
As discussed above, the statute of limitations expired on June 9, 2016 – about eight months ago. Because a federal habeas petition does not toll the
limitations period, a stay pursuant to Kelly would preclude Petitioner from seeking habeas review for
ground two in this Court as being untimely, unless Petitioner is entitled to statutory or equitable tolling, or
ground two “relates back” to ground one. See Duncan
v. Walker, 533 U.S. 167, 181-82 (2001); Mayle v. Felix,
545 U.S. 644, 659 (2005).
a.

Tolling

Respondent argues that while the Petition itself is
timely, ground two is not and Petitioner is neither entitled to statutory nor equitable tolling. (ECF No. 18 at
10-13). Petitioner does not address the issue of tolling
the statute of limitations. (See ECF No. 25).
AEDPA tolls its limitations period for the “time
during which a properly filed application for State postconviction or other collateral review . . . is pending.”

49a
28 U.S.C. § 2244(d)(2); Nino v. Galaza, 183 F.3d 1003,
1005 (9th Cir. 1999) (overruled on other grounds by
Harris v. Carter, 515 F.3d 1051, 1053 (9th Cir. 2008)).
Petitioner
did
not
seek
state
postconviction relief or other collateral review. (ECF No. 18
at 11; Lodg. No. 10). As such, Petitioner is not entitled
to statutory tolling. (ECF No. 18 at 11; Lodg. No. 10).
AEDPA’s one-year statute of limitations is also
subject to equitable tolling in appropriate cases. Holland v. Florida, 560 U.S. 631, 645 (2010). Equitable
tolling is appropriate where a habeas petitioner
demonstrates: “(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance stood in his way.” Id. at 649. In this case, Petitioner did not argue that he is entitled to equitable
tolling, and nothing in the record indicates that he is
entitled to equitable tolling. (See ECF No. 25 at 5). Accordingly, the Court finds that the statute of limitations expired on June 9, 2016 and is not subject to
statutory or equitable tolling. Under a Kelly stay,
ground two of the Petition would be time-barred unless
Petitioner can show that ground two relates back to his
only other ground for relief.
b.

Relation Back

“An amended habeas petition does not relate back
(and thereby escape AEDPA’s one-year time-limit)
when it asserts a new ground for relief supported by
facts that differ in both time and type from those the
original pleading set forth.” Mayle, 545 U.S. at 650. A

50a
claim relates back when it shares a “common core of
operative facts” with a timely claim. Id. at 659. A claim
does not relate back to an existing claim simply because it arises from “the same trial, conviction or sentence.” Id. at 663-64.
Here, Petitioner’s first ground for relief concerns
the trial court’s admission of the prior testimony of a
victim and ground two concerns counsel’s ineffective
assistance in failing to challenge the trial court’s decision to permit the guilty verdict to stand where a juror
expressed reasonable doubt after conviction. (ECF No.
1 at 12-13). Ground two of the petition does not relate
back to ground one because the claims do not share a
“common core of operative facts.” See Mayle, 545 U.S.
at 659.
c.

Conclusion

As discussed herein, while the Petition itself is
timely, ground two of the Petition is unexhausted. Dismissing ground two and staying ground one of the Petition under Kelly would be futile because the statute
of limitations already expired and Petitioner is not entitled to toll the limitations period or to relate his unexhausted claim back to ground one of the Petition.
Thus, this Court declines to permit a stay pursuant to
Kelly.

51a
2.

Stay Pursuant to Rhines

Rhines permits a district court to stay a mixed petition in its entirety. King, 564 F.3d at 1139-40. To stay
the entire mixed petition without dismissing unexhausted claims, the petitioner must show good cause
for failing to exhaust the claims in state court before
filing the federal petition and that the unexhausted
claims are not “plainly meritless.” Rhines, 544 U.S. at
277-78. A stay under Rhines is inappropriate where
the petitioner has engaged in “abusive litigation tactics or intentional delay.” Id.
a.

Good Cause

The first factor in the Rhines analysis is whether
Petitioner has demonstrated good cause for failing
to raise his unexhausted claim in state court. Petitioner argues that he has good cause because his postconviction counsel provided ineffective assistance when
he failed to raise ground two of the federal Petition at
trial, on appeal, or in a state habeas petition even
though the claim was apparent from the record and is
potentially meritorious. (ECF No. 25 at 5) Petitioner
also argues he was “reasonably confused” and “was unaware of his counsel’s failure to exhaust” ground two.
(Id.).
The Supreme Court has not precisely articulated
what constitutes “good cause” for purposes of granting
a stay under Rhines. Pace v. DiGuglielmo, 544 U.S. 408,
416 (2005). The Ninth Circuit has held that ineffective assistance “by post-conviction counsel can be good

52a
cause for a Rhines stay,” where a petitioner’s showing
of good cause is not a bare allegation of ineffective assistance of counsel, but a concrete and reasonable excuse, which is supported by evidence that his state
post-conviction counsel failed to discover, investigate
and present to the state courts. Blake v. Baker, 745 F.3d
977, 983 (9th Cir. 2014). In Blake, the Ninth Circuit
held:
The good cause element is the equitable component of the Rhines test. It ensures that a
stay and abeyance is available only to those
petitioners who have a legitimate reason for
failing to exhaust a claim in state court. As
such, good cause turns on whether the petitioner can set forth a reasonable excuse, supported by sufficient evidence, to justify that
failure. An assertion of good cause without evidentiary support will not typically amount to
a reasonable excuse justifying a petitioner’s
failure to exhaust.
Id. at 982. To show good cause based on ineffective assistance of appellate counsel, therefore, Petitioner
must provide a “concrete and reasonable” excuse and
make more than a bare allegation that counsel acted
unreasonably and that those actions prejudiced him.
Id. at 983; see Strickland v. Washington, 466 U.S. 668,
692 (1984) (providing the standard for ineffective assistance of counsel).
Petitioner focuses on circumstantial evidence
showing that “counsel [failed] to raise any issues regarding Juror 4 [which shows] counsel’s ineffective

53a
assistance [and] demonstrates good cause for failing to
exhaust his claim.” (ECF No. 25 at 5). In his Petition,
Petitioner attaches a Reporter’s Transcript where Juror 4 expressed she had “reasonable doubt . . . on certain accounts” after the guilt phase and during the
penalty phase of the trial. (ECF No. 1 at 104). The record reflects that the trial judge asked Juror 4 why she
did not express her reasonable doubt when he polled
the jury. (ECF No. 1 at 104-05). Juror 4 stated she had
“basically overcome the doubt that [she] had. And it
continued to come up in [her] mind [after the verdicts
were returned and during the intervening time.]” (Id.
at 105). Juror 4 then stated that at the time the verdict
was given, she supported the verdict and it was her
verdict, but that she still wanted to speak privately
with the judge to discuss “very specific” allegations or
charges. (Id. at 106). The trial judge asked whether Juror 4 understood what reasonable doubt means and
whether she had done outside research. (Id. at 105-06).
Juror 4 explained she understood what reasonable
doubt means and that she had not done outside research. (Id.). The trial judge then explained that speaking privately with Juror 4 would be inappropriate and
indicated that nothing Juror 4 said raised issues regarding juror misconduct. (Id.).
In response to Juror 4’s statement, Petitioner’s
trial counsel requested “the jury be directed to return
to the jury room and reopen their deliberations concerning issues in the guilt phase,” or in the alternative,
requested a mistrial. (Id. at 157). The People requested
the court determine whether Juror 4 should be excused

54a
for cause. (Id. at 169). On November 16, 2012, the court
permitted oral argument on the issues and ultimately
concluded that “[t]here is nothing to correct at the present time. Those verdicts were polled and recorded.
The fact she has now had some buyer’s remorse, as
suggested, that opens a pandora’s box for incredible
mischief.” (Id. at 170). The court did not reopen jury
deliberations, did not grant a mistrial and did not excuse Juror 4 for cause. (Id. at 127-176). Contrary to Petitioner’s argument, the record shows that trial counsel
did address the issue regarding Juror 4 by moving for
a mistrial and moving to reopen jury deliberations.
(Id.; see ECF No. 25 at 5).
The record supports Petitioner’s argument that
appellate counsel failed to raise any issues regarding
Juror 4. (ECF No. 25 at 5; Lodg. Nos. 3, 5, 7). Appellate
counsel did not include this claim in the appellate brief,
reply brief or the petition for review in the California
Supreme Court, despite the fact that the Reporter’s
Transcript includes approximately 65 pages on the issue. (Lodg. Nos. 3, 7; ECF No. 1 at 99-122, 127-152, 157176). Petitioner has also shown that he relied upon the
assurances of his trial and appellate counsel that they
would raise any necessary claims for him. (See ECF No.
1 at 13) (indicating that Petitioner thought his attorney raised this issue in his Petition for Review).3
3

Any argument that good cause cannot be predicated on Petitioner’s mistaken belief that counsel raised the issues is inapplicable. While Wooten v. Kirkland held that the petitioner did not
show good cause by arguing he was “under the impression” that
his counsel raised all claims before the state court of appeal, the
Court specifically noted that the petitioner did not attempt to

55a
Petitioner has made a sufficient showing that his appellate attorney may have acted unreasonably because
he had notice of the juror claim and failed to exhaust
the claim by presenting it to the state’s highest court.
In his opposition, Petitioner argues that Juror 4’s
statement indicates that the jury’s verdict was not
unanimous and appellate counsel provided ineffective
assistance by failing to raise that issue on appeal or
through a state habeas petition. (ECF No. 25 at 5; see
ECF No. 1 at 13). Petitioner asserts that the juror issue
is clear from the record and there was no reason for
counsel’s failure to raise these claims in the appeal, in
the petition for review before the California Supreme
Court, or in a state habeas petition. (See ECF No. 25).
The Court finds Petitioner has not adequately
shown ineffective assistance of counsel for purposes of
a Rhines stay because Petitioner has not made a wellargued claim of unanimous jury infringement or juror
misconduct. Petitioner’s case might be the type of “capital” case requiring a unanimous jury verdict – even
though he was tried in bifurcated guilt and penalty
proceedings and was ultimately not sentenced to
death. Cf. People v. Collins, 17 Cal. 3d 687, 693 (1976)
(California law requires unanimous jury verdict in
criminal cases) with Schad v. Arizona, 501 U.S. 624,
634 n.5 (“a state criminal defendant, at least in noncapital cases, has no federal right to a unanimous jury
establish ineffective assistance of appellate counsel. Wooten v.
Kirkland, 540 F.3d 1019, 1024 n.2. As a result, Petitioner’s “reasonable confusion” as to whether ground two was exhausted does
not preclude a stay under Rhines. (See ECF No. 25 at 5).

56a
verdict”); (See Lodg. No. 2-7 at 1701; Lodg. No. 1-49 at
7966-70). Even if a unanimous jury is constitutionally
required, there was a unanimous jury verdict and,
when individually polled, no juror expressed any
equivocation or hesitation regarding the verdict. (Lodg.
No. 1-48 at 7915-30). Specifically, the Court asked “Juror No. 4, were these and are these your personal verdicts as read by the court?” (Id. at 7929). Juror 4
responded “yes.” (Id.). Additionally, Juror 4 told the
court that she overcame her reasonable doubt before
giving the verdict. (ECF No. 1 at 105). Accordingly, no
right to a unanimous jury verdict was infringed in this
case. Leon v. Cate, 617 Fed. App’x 783, 783 (9th Cir.
2015) (“The jury returned a verdict, the clerk read it in
open court, the jury collectively affirmed it without dissent, and it was recorded. . . . [T]he validity of the verdict was not subject to attack at that point unless [the
petitioner] established that the jury committed prior
misconduct in reaching the verdict.”); see Fuentes v. Adams, No. SA CV 06-182-GW (CW), 2015 U.S. Dist.
LEXIS 180156, at *47-48 (C.D. Cal. Sept. 2, 2015) (A
Magistrate Judge’s Report and Recommendation,
which found no infringement of a unanimous jury verdict where the record showed that all jurors had been
pooled and supported the verdict); see also Fuentes v.
Adams, No. SA CV 06-182-GW (CW), 2016 U.S. Dist.
LEXIS 98346 (adopting the Magistrate Judge’s Report
and Recommendation).
A unanimous verdict may still be attacked if the
verdict was subject to juror misconduct prior to reaching the verdict. Leon, 617 Fed. App’x at 783. Thus, the

57a
Court must consider whether the Sixth Amendment’s
guarantee of the right to a “fair trial by a panel of impartial, ‘indifferent’ jurors” to criminal defendants was
infringed when Juror 4 expressed reasonable doubt after conviction. Irvin v. Dowd, 366 U.S. 717, 722 (1961);
see Dyer v. Calderon, 151 F.3d 970, 973 (9th Cir. 1998).
“If only one juror is unduly biased or prejudiced or
improperly influenced, the criminal defendant is denied his Sixth Amendment right to an impartial
panel.” United States v. Hendrix, 549 F.2d 1225, 1227
(9th Cir. 1997). In the event of a jury misconduct or juror bias allegation, the court should hold a hearing
with all interested parties. See Remmer v. United
States, 347 U.S. 227, 229-30 (1954); see also Smith v.
Phillips, 455 U.S. 209, 216-17 (1982). However, the
“near-universal and firmly established common-law
rule in the United States flatly prohibit[s]” the admission of juror testimony to impeach a verdict except
where “an extraneous influence” affected the verdict.
Tanner v. United States, 483 U.S. 107, 117 (1983) (citations omitted); see also McDonald v. Pless, 238 U.S. 264,
269 (1915) (generally, jurors may not impeach their
own verdict). Both the Federal Rules of Evidence and
the California Evidence Code prohibit the use of juror
testimony to impeach a verdict when testimony relates
to the internal mental process of the verdict. See FED.
R. EVID. 606(b); CAL. EVID. CODE § 1150(a).
The Court finds that there was no evidence of juror
misconduct in this case. Juror 4’s expression of reasonable doubt about specific allegations or charges after
the verdict was given concerns her thought process and

58a
the jury’s internal deliberations, as opposed to testimony regarding extrinsic influence or juror bias, which
is “flatly prohibited” to impeach the jury’s verdict. See
Tanner, 483 U.S. at 117. Thus, Juror 4’s statement does
not constitute grounds for reversal of the verdict. See
Panella v. Marshall, 434 Fed. App’x 603, 605 (9th Cir.
2011); see also Franklin v. McEwen, No. SACV 12-1514DDP (OP), 2013 U.S. Dist. LEXIS 180861 at *46-50
(C.D. Cal Sept. 26, 2013) (finding a juror’s post-verdict
statement apologizing for voting to convict the petitioner and explaining “that ‘most of the jurors wanted
to give defendant not guilty’ ” insufficient to reverse
the verdict).
Because Petitioner’s right to a unanimous jury
was not infringed and there was no juror misconduct,
any deficiency in failing to raise these issues on appeal
or in state post-conviction applications for collateral
relief were not prejudicial under Strickland v. Washington. This is inadequate to show ineffective assistance of counsel for purposes of a Rhines stay.
b.

Merit of Petitioner’s Claim

For the reasons set forth in the previous section,
this Court finds that Petitioner’s claim is not potentially meritorious. See Rhines, 544 U.S. at 278 (stating
that petitioner is entitled to a stay if “his unexhausted
claims are potentially meritorious”). Petitioner cannot
succeed on an ineffective assistance claim if the alleged
deficiency – failing to raise any issue regarding Juror
4 – would not have prejudiced him. See Strickland, 466

59a
U.S. at 692 (stating that counsel’s alleged deficiencies
must have prejudiced the client to prove ineffective assistance of counsel). Petitioner was not prejudiced because, as discussed above, the right to a unanimous
jury was not infringed and there was no juror misconduct.
c.

Abusive Litigation Tactics or Intentional Delay

The final consideration under Rhines is whether
Petitioner’s failure to exhaust is a result of intentionally dilatory litigation tactics. Rhines, 544 U.S. at 278.
Respondent does not argue that Petitioner engaged in
abusive litigation tactics or intentional delay and there
is no indication in the record before this Court that Petitioner failed to exhaust for the purpose of delaying
these proceedings. (See ECF No. 18). Accordingly, Petitioner satisfies the third Rhines consideration.
d.

Conclusion

Petitioner has not adequately shown good cause
for failing to exhaust ground two of his Petition nor
that ground two is potentially meritorious. Thus, it is
RECOMMENDED that the Court find Petitioner has
not demonstrated the good cause required under
Rhines to warrant a stay of Petitioner’s only exhausted
claim while Petitioner returns to state court to exhaust
ground two of his Petition.4 However, the Court finds it
4

The Court recognizes the Ninth Circuit’s recent decision in
Dixon v. Baker, - F.3d -, No. 14-1664 (9th Cir. Feb. 2, 2017), which

60a
inappropriate to dismiss the entire Petition. Accordingly, IT IS FURTHER RECOMMENDED that the
Court GRANT IN PART Respondents’ motion to dismiss by dismissing only ground two of the Petition.
IV.

CONCLUSION

For the foregoing reasons, IT IS HEREBY RECOMMENDED that the District Court issue an Order:
(1) Approving and Adopting this Report and Recommendation; (2) GRANTING IN PART Respondents’
Motion to Dismiss; and (3) DISMISSING ground two
of the Petition with prejudice.
IT IS HEREBY ORDERED that any written objections to this Report must be filed with the Court and
served on all parties no later than February 28, 2017.
The document should be captioned “Objections to Report and Recommendation.”
IT IS FURTHER ORDERED that any reply to
the objections shall be filed with the Court and served
on all parties no later than March 7, 2017. The parties
are advised that failure to file objections within the
specified time may result in a waiver of the right to
raise those objections on appeal of the Court’s order.
found that a state prisoner who did not have post-conviction counsel has shown “good cause” for a failure to exhaust state court
remedies in connection to an unexhausted ineffective assistance
of trial counsel claim due to his pro se status. Dixon is inapplicable
to the instant case because Petitioner was represented by counsel
in all post-conviction proceedings, with exception to the filing of
the instant federal Petition. Petitioner obtained representation in
this case on December 7, 2016. (ECF No. 20).

61a
See Turner v. Duncan, 158 F.3d 449, 455 (9th Cir. 1998);
see also Martinez v. Ylst, 951 F.2d 1153, 1156 (9th Cir.
1991).
IT IS SO ORDERED.
Dated: February 6, 2017
/s/ Mitchell D. Dembin
Hon. Mitchell D. Dembin
United States
Magistrate Judge

